                                                                                                                           l u
                                                                                                     HQ                   0.     L
      S          .----------
                                                                     G
09/18/07         TUE 16:14 FAX 865 241 3897


  DOEF 1325.8
  (08-83)

  United States Government                                                                     Department of Energy


  memorandum
            DATE:              September 12, 2007                     Audit Report Number: OAS-L-07-24
       REPLY TO
        ATTN OF:               IG-32 (A06ET012)

      SUBJECT:                 Audit of the "Use of External Independent Reviews at Environmental Management Sites"

                TO:            Chief Operating: Officer, Office of Environmental Management

                               INTRODUCTION AND OBJECTIVE

                               Under DOE Manual 413.3-1, ProjectManagementfor the Acquisition of CapitalAssets
                               (Manual), the Office of Engineering and Construction Management (OECM) must
                               perform a Performance Baseline External Independent Review (Review) to support the
                               validation of the performance baseline and provide reasonable assurance that the project
                               can be successfully executed. The Manual also requires OECM to perform a
                               Construction/Execution Readiness Review for all Major System projects to assess their
                               readiness for construction or implementation and to confirm the completeness and
                               accuracy of the performance baselines. From 2000 to 2005, 150 Reviews have been
                               performed with costs ranging from $50,000 to $1.2 million per review.

                               The findings and recommended corrective actions from the reviewers are provided by
                               OECM to the program/project staff for their response. This information is used by the
                               OECM to determine the validity of the project's performance baseline and the sufficiency
                               of project management actions needed to move the project to its next phase of
                               development. Finally, OECM uses project management documentation, Reviews, and-
                               corrective action plans to recommend to senior management whether a project is ready
                               for inclusion in the Department of Energy's (Department) annual budget request.

                           We conducted this audit to determine whether the Office of Environmental Management
                           (EM) effectively implemented corrective actions resulting from External Independent
                           Reviews.

                           CONCLUSIONS AND OBSERVATIONS

                           Our audit found that EM could improve the implementation and tracking of open
                           recommendations in the corrective action plans that result from Reviews. Currently, EM
                           relies on site management to respond to the reviewers' findings and recommendations and
                           to document and execute corrective action plans. However, of 20 Reviews we randomly
                           selected for audilt, the Department was unable to provide us with corrective action plans
                           for 9 of the Reviews. Further, for the 11 Reviews which contained complete corrective
                           action plans, we found some of the corrective actions were not completed and/or closed
                           out, were written-off as "agreed to disagree", or had no response at all.
                                                                                                    H
                                 3897                      IG    .--
09/18/07   TUE 16:14 FAX 865 241




                                                                      a tatus of corrective acon   plans
                 he Departmet could not    pvide documentation or identifying    the Reviews selected for
                for 9 of the 20 Reviews we  selected for audit. After
                                                                to veriy that corrective action wa taken.
                audit, we.requested the corrective action plans               uable to p     ide almot half
                 However, as noted in the following table,      agemet
                 of the plans requested.
                                     Site                     Reviews              Corrective
                                                               elected
                                                              Site                Action Plans
                                                                                  Not Received

                          PortsnouthfPaducah                       2
                          Miamisbur                                6                       5
                          Hanford                                   2                      0
                          Idaho                                     1                      0
                          Los Alamos                                2                      .0
                           Nevada                                      2                    2
                           Oak Rid e                                    1                   0
                           Pantex                                      20                   9

                                                                                            action plans, we
                                for those Reviews where we were able to identify corrective
                   In addition,


                                                                                       the baseline estimate       and be
                    the potential risk of employee        benefit costs exceeding
                                                                          The   contractor concurred        with the
                                                              funding.                                  the Department chose
                    prepared to establish contingency               was taken due to the fact that
                     Srepcommendation; however, no action                                         anotheviReviewwwas
                         fovoer                                         contractor took over, another Review            was
                     to recompete the contract. After the new                                   the   contractor     did not
                                                        Despite similar recommendations,            2005, the Department
                     conducted in March 2003.           December     2003 and, as of February
                                    the  Review   until                                                the lack of
                      respond to                            the recommendations. Ultimately,
                                             responses   to
                      could not provide
                                                                     delayed project.completion.
                       implementing these recommendations                     f t ^         e
                                                                                            w     s t h a t allow for  the results
                         S         T^dur^
                                                                          system   or procedures    that allow for the results
                                                        developed any                      a list of Reviews performed
                                                                                                                                at
                       We noted that EM hadnot              and tracked. In requesting
                       of Reviews     to be  documented
                                                                       was able to document for        certainty, the number
                                            a given  period,  no  one                             no   specific   individual had.
                       EM sites during                performed.    Further,  it appeared that
                        and location of Reviews                                       actions. Rather, multiple
                                                                                                                        sources at
                                                                      of corrective
                        responsibility to track implementation                                          for us to obtain a copy
                               Headquarters,   field sites, and contractors had to be contacted
                        EM
                         for review.
                                                                                                           EM develop a formal
                                              weaknesses,    we suggest ihat for future Reviews,                             the
                         Because    of these
                                                                 recommendations.       A formal tracking system at
                          tracking system    for open  Review                                                       by allowing
                                                                   oversight of Review recommendations                             in
                          Headquarters level could improve            tracked   to help ensure   that   they   are implemented
                                                     identified   and
                          them to be more easily
                           a timely manner.




                                                                       2
..---   --    ----                ---                      0-----                             HQ                  .00U3
                                                           OIG
 09/18/07     TUE 16:15 FAX 865 241 3897




                      SCOPE AND METHODOLOGY

                      The audit was performed from September 2006 through August 2007 at OECM in
                      Washington, DC, and the EM Office of Project Management Oversight in Germantown,
                      Maryland. The audit scope was limited to Reviews of EM programs. To accomplish the
                      audit objective, we obtained and examined Reviews and corrective action plans
                      completed from 2000 to 2006 and interviewed OECM and EM personnel.

                      We conducted this performance audit in accordance with generally accepted Government
                      auditing standards. Those standards require that we plan and perform the audit to obtain
                      sufficient, appropriate evidence to provide a reasonable basis for our findings and
                      conclusions based on our audit objectives. We believe that the evidence obtained
                     provides a reasonable basis for our findings and conclusions based on our audit
                     objectives. The audit included tests of internal controls for tracking open corrective
                     actions and compliance with laws and regulations to the extent necessary to satisfy the
                     audit objective. Because our review was limited, it would not necessarily have disclosed
                     all internal control deficiencies that may have existed at the time of our audit. Also, we
                     evaluated the Department's implementation of the Government Performanceand Results
                     Act of 1993 and determined that the Department uses these Reviews to validate and verify
                     program performance. Finally, since we did not rely upon automated data processing
                     information to accomplish our audit objective, we did not conduct an assessment of the
                     reliability of computer processed data.

                     An exit conference was held with officials from EM's Office of Acquisition and Project
                     Management on. August 16, 2007. We appreciate the cooperation of your staff during our
                     review. Because no formal recommendations are being made in this letter report, a
                     formal response is not required.




                                                      ,.       Fredrick G. Pieper, Director
                                                               Energy, Science and Environmental
                                                                Audits Division
                                                               Office of Inspector General
             cc:     Chief of Staff
                     Director, .Office of Engineering and Construction Management, MA-50
                     Team Leader, Audit Liaison Team, CF-1.2
                     Audit Liaison, Office of Environmental Management, EM-33
                     Audit Liaison, Office of Management, MA-70




                                                           3
